Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
United States of America
T: +1 202 263 3000
F: +1 202 263 3300
mayerbrown.com

August 18, 2020
VIA ELECTRONIC FILING AND MAIL DELIVERY

T: +1 202 263 3220
F: +1 202 263 5220

apincus@mayerbrown.com

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re:

Andrew J. Pincus

Himsel v. Himsel, No. 20-72

Dear Mr. Harris:
The petition in the above-referenced case was filed on July 17, 2020, and the brief in opposition is
currently due on August 24, 2020. Respondents have consented to the filing of an amicus brief in
support of the petition, which also is due on August 24.
On behalf of respondents, I therefore respectfully request a seven-day extension of time for the
filing of the brief in opposition so that respondents may address any relevant argument contained
in the amicus brief. Petitioners’ counsel has consented to this extension.
Thank you for your consideration of this request.
Sincerely,

Andrew J. Pincus
Counsel for Respondents

Mayer Brown is a global services provider comprising an association of legal practices that are separate entities including
Mayer Brown LLP (Illinois, USA), Mayer Brown International LLP (England), Mayer Brown (a Hong Kong partnership)
and Tauil & Chequer Advogados (a Brazilian partnership).

